                                     SOCIAL SECURITY
MEMORANDUM

Date:   December 15, 2008                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Effectiveness of Educational Correspondence to Employers (A-03-07-17105)



        The attached final Quick Response Evaluation presents the results of our review. Our
        objective was to assess the effectiveness of Educational Correspondence in
        communicating wage-reporting problems to employers and reducing the size of the
        Earnings Suspense File.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
Effectiveness of Educational
Correspondence to Employers

        A-03-07-17105




        December 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                        Background
OBJECTIVE
Our objective was to assess the effectiveness of Educational Correspondence
(EDCOR) in communicating wage-reporting problems to employers and reducing the
size of the Earnings Suspense File (ESF).

BACKGROUND
As part of the Annual Wage Reporting process, the Social Security Administration
(SSA) attempts to match the names and Social Security numbers (SSN) on Wage and
Tax Statements (Form W-2) that are submitted by employers against SSA’s Numident
file—the repository for all issued SSNs. A Form W-2 that contains a name and SSN
combination that matches the Numident file is posted to the Master Earnings File
(MEF). 1 However, in cases where the name and SSN combination cannot be matched
to SSA’s records, the wage information on the Form W-2 is posted to the ESF—the
repository of unmatched items. 2

To resolve name/SSN combinations that cannot be matched, also known as “no-
matches,” SSA began sending EDCOR letters to employers in 1994. 3 These letters are
commonly called “no-match letters.” The EDCOR letter was designed to help educate
employers about their name/SSN no-matches and remind employers about the
importance of submitting accurate information on Forms W-2. 4 The EDCOR letter
explains to employers that some of the name/SSN combinations reported do not agree
with SSA’s records and asks employers to submit a Statement of Corrected Income and
Tax Amount (Form W-2C) within 60 days for each SSN listed on the letter. 5 In addition,
it explains that some of the name/SSN no-matches may be the result of common
mistakes, such as transcriptions or typographical errors, incomplete or blank



1
 The MEF contains all earnings data reported by employers and self-employed individuals. The data are
used to determine eligibility for, and the amount of, Social Security benefits.
2
 As of October 2007, the ESF had accumulated about 275 million wage items representing about
$661 billion in wages for Tax Years (TY) 1937 through 2005.
3
    See Appendix B for a copy of the EDCOR letter.

4
 SSA Program Operations Manual System, NL 00901.051 Educational Correspondence (EDCOR)
(Code V – No match letter).
5
  The Form W-2C is used to correct errors reported on previously submitted Forms W-2. It can be used
to correct errors related to names and SSNs, wage amounts, and employer information such as the
Employer Identification Number (EIN).



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                               1
name/SSN, or the failure of an employee to report a name change to SSA. 6 SSA mails
EDCOR letters to employers on a flow basis beginning in February of each year. As
shown in Table 1, over the years, SSA has used various criteria to determine whether
employers should receive an EDCOR letter.

                      Table 1: SSA’s Criteria for Sending EDCOR Letters

                   Letters were sent to employers who submitted a wage report
                   containing more than 10 Forms W-2 that SSA could not process, and
    2003 - Present the mismatched forms represented more than one-half of 1 percent
                   (.5 percent) of the total Forms W-2 included in the wage report. The
     (TYs 2002-
                   letters list up to 500 SSNs (without names) that could not be
       present)
                   matched. The employer is asked to contact SSA for a full list if there
                   are more than 500 SSNs.
                   Letters were sent to employers who submitted a wage report where
        2002
                   the name and/or SSN on at least one Form W-2 did not agree with
      (TY 2001)
                   SSA’s records.
    2001 and Prior Letters were sent to employers who submitted a wage report
        Years      containing more than 10 Forms W-2 that SSA could not process and
     (TYs 2000-    the mismatched forms represented more than 10 percent of the total
        prior)     Forms W-2 included in the wage report.

In TY 2006, EDCOR letters were to include a Department of Homeland Security (DHS)
insert that would have required employers to take timely action to resolve no-matches
associated with the SSNs listed in EDCOR letters to avoid liability under immigration
law. 7 However, in August 2007, a temporary restraining order was issued based on a
lawsuit filed by labor advocacy organizations preventing SSA from mailing EDCOR
letters reflecting DHS’s Final Rule entitled, Safe Harbor Procedures for Employers Who
Receive a No-Match Letter. 8 In October 2007, the U.S. District Court for the Northern
District of California granted a preliminary injunction that continues to prevent DHS and

6
  The letter explains that receipt of the letter does not imply the employer or the employee intentionally
gave SSA wrong information about the employee’s name and SSN. Further, the letter does not make any
statement about the employees’ immigration status. It cautions employers from taking adverse action
(that is, suspending, firing, or discriminating) against an employee because his or her SSN appears on
the letter.
7
    The Immigration and Nationality Act (INA) § 274A(a)(2), 8 U.S.C. § 1324a(a)(2).
8
 In August 2007, DHS issued the Final Rule, Safe Harbor Procedures for Employers Who Receive a
No-Match Letter, which amended regulations relating to the unlawful hiring or continued employment of
unauthorized aliens. The Final Rule outlined clear steps an employer may take in response to receiving a
no-match letter from SSA indicating that an employee’s name and SSN did not match SSA’s records.
See 72 Federal Register (FR) 45611, August 15, 2007. The U.S. District Court for the Northern District of
California issued a temporary restraining order against DHS and SSA, preventing the two agencies from
implementing the Final Rule. American Federation of Labor, et al. v. Michael Chertoff, et al., 552 F.
Supp. 2d 999.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                                2
SSA from implementing the Final Rule. 9 In March 2008, DHS issued a proposed
supplemental rule to clarify certain aspects of the August 2007 Final Rule and respond
to the findings underlying the District Court’s injunction. 10 Because of the court
injunction preventing implementation of DHS’ worksite enforcement regulation, SSA
decided not to send employers TYs 2006 and 2007 EDCOR letters.

In addition to the EDCOR letters, SSA sends Decentralized Correspondence (DECOR)
to employees whose earnings cannot be credited to its records because the reported
name/SSN cannot be matched. The letters request that the reported information be
reviewed, verified or corrected when possible, and returned to SSA. These letters are
mailed to the addresses reported on the individuals’ Forms W-2. If a Form W-2 does
not have an address, or the reported address was not found in the U.S. Postal Service
database of valid addresses, a DECOR letter is sent to the employer. These letters are
called “employer DECOR letters.”

SCOPE AND METHODOLOGY
To perform this review, we focused on TY 2005 EDCOR and DECOR letters that were
mailed in Calendar Year (CY) 2006. Although SSA mailed letters to employers in
CY 2006 for prior TYs (going back to the 1980s), we focused on TY 2005 because (1) it
was the most recent year and (2) about 97 percent of the letters related to this period.
See Appendix D for more details about our scope and methodology.




9
    Id.
10
     See 73 FR 15944, March 26, 2008.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                 3
                                                   Results of Review
SSA’s EDCOR letters were not effective in communicating wage-reporting problems to
employers and reducing the size of the ESF. While EDCOR letters were established to
help employers resolve name/SSN no-matches, for TY 2005, we found about
74 percent of employers who reported wage items with mismatched names and SSNs
did not receive an EDCOR letter primarily because of the Agency’s criteria for issuing
the letters. In addition, employers who received EDCOR letters were not always
informed about all of their no-matches because the EDCOR letters only listed up to
500 mismatched SSNs. For example, about 1,650 employers received EDCOR letters
that did not include about 1.7 million of their 2.6 million no-matches. Moreover, our
review found EDCOR letters provided employers with limited information needed to
resolve name/SSN no-matches. The letters only included mismatched SSNs and not
the reported names.

Furthermore, name/SSN no-matches were less likely to be resolved under the EDCOR
process as compared to the DECOR process. In TYs 2001 through 2005, about
680,500 wage items were reinstated because of the DECOR process, whereas only
60,500 wage items were reinstated because of the EDCOR process. Finally, although
SSA had developed a more effective process for employers to review and correct
name/SSN no-matches electronically, we found employers seldom used the Business
Service Online, which is a suite of Internet services for employers to exchange
information with SSA.

LIMITED EMPLOYERS ARE NOTIFIED ABOUT NO-MATCHES

In TY 2005, there were approximately 871,000 employers who reported about
10.1 million Forms W-2 to SSA that included name and SSN combinations that did not
match SSA’s records. As a result, these wage items were posted to the ESF. SSA sent
both EDCOR and employer DECOR letters to some employers requesting their
assistance in resolving the name/SSN no-matches.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                 4
Based on our review of the EDCOR and DECOR letters, we found

    220,894 (25 percent) employers
     received EDCOR and/or employer              Figure 1: Summary of Employers
     DECOR letters that included about              Notified About No Matches
     5 million name/SSN no-matches;

    1,650 employers (less than
     1 percent) received EDCOR letters          Received employer
     that included about 907,000 no-            DECOR letters and                Did not receive
     matches, but the letters did not            were not notified
                                                                                 EDCOR letters
     include an additional 1.7 million no-     about all no matches
                                                                                    (511,484)
                                                    (137,062)
     matches;

    137,062 employers (16 percent)
     did not receive EDCOR letters to
     notify them about 1 million no-
     matches, but they did receive
     employer DECOR letters that
     included about 376,000 no-
                                                  Notified about             Received EDCOR
     matches; and                                 all no matches           letters and were not
                                                      (220,894)            notified about all no
    511,484 employers (59 percent)                                              matches
     did not receive EDCOR letters,                                               (1,650)
     thus they were not notified about
     1 million no-matches.

Employers Did Not Receive EDCOR Letters

Our review found that 648,546 employers 11 (74 percent) did not receive EDCOR letters
because their name/SSN no-matches either did not meet the EDCOR criteria or met the
criteria, but the Agency did not have valid employer information in its records for the
employers.

About 635,226 employers did not receive EDCOR letters because they reported 10 or
fewer Forms W-2 that contained name/SSN no-matches. As stated earlier, an EDCOR
letter was sent to employers if their wage report contained more than 10 Forms W-2 that
could not be posted to the MEF because the name and SSN combination could not be
matched to SSA's records, and the mismatched forms exceeded .5 percent of the total
Forms W-2 included in the wage report. Although the number of no-matches reported
by the 635,226 employers appeared to be small, for most of these employers, the no-
matches represented a significant portion of their payroll. As shown in Figure 2, about
11
  The 648,546 employers include the 137,062 employers who did not receive EDCOR letters but
received employer DECOR letters and the 511,484 employers who did not receive EDCOR letters.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                           5
53 percent of the 635,226 employers had no-matches that represented 10 percent or
more of their payroll. About 43 percent of the employers had no-matches that
represented more than .5 percent, but less than 10 percent, of their payroll.
Approximately 4 percent of the employers had no-matches that represented .5 percent
or less of their payroll, which is one of the criteria used by SSA to exclude employers
from receiving an EDCOR letter. If the .5 percent criterion had applied to the total
number of no-matches reported by an employer, instead of the number of no-matches
included in a wage report and there was no minimum number of no-matches required,
about 607,165 of the 635,226 employers would have been eligible to receive an
EDCOR letter. The 607,165 employers submitted 1 to 501 wage reports to SSA that
included approximately 1.6 million no-matches.

                     Figure 2: Percent of Payroll for Employers Who
                      Reported 10 or Fewer Name/SSN No-Matches

                            9%        4%                          Fewer than .5 percent

                                                                  More than .5 percent but
                                                                  less than 10 percent
                                                                  10 to 50 percent
             44%                                     43%
                                                                  51 to 100 percent




For the remaining 13,320 employers who reported 11 to 16,934 Forms W-2 that
contained no-matches, it appeared they did not receive EDCOR letters because
(1) their no-matches did not exceed .5 percent of their wage reports; (2) they met the
criteria, but the Agency had incomplete or inconsistent employer information in its
records for the employers; or (3) they met the criteria, but Agency staff could not explain
why they did not receive EDCOR letters. A sample of 50 employers revealed the
following: 12

    68 percent of the employers had no-matches that met the EDCOR criteria but did
     not receive a letter because either SSA did not have addresses for the employers in
     the Employer Identification File (EIF) or the code that identifies the employer type
     (that is, household, agriculture) as reported by the employer was inconsistent with
     the EIF. The EIF is an Internal Revenue Service (IRS) file that contains employers’
     names, addresses, and employment type associated with EINs and SSA uses the
12
   We found that SSA had mailed an EDCOR letter to 1 (2 percent) of the 50 sample employers. This
employer was not included in the data file we received from the Agency of all employers who were mailed
EDCOR letters for TY 2005. According to Agency staff, the employer was not included in the data file
because of an error related to a code that identifies the number of employer submissions (wage reports)
to SSA. Agency staff was aware of the error and believed the problem had been corrected. Agency staff
could not provide us with a reasonable estimate on the magnitude of this error. Therefore, some of the
13,320 employers may have received an EDCOR letter for TY 2005.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                              6
     information maintained in this file to issue EDCOR letters to employers. 13 When the
     Agency mailed the TY 2005 EDCOR letters to employers, the EIF did not include
     valid addresses or updated employment type codes for the employers included in
     our sample.

    22 percent of the employers did not receive letters because their no-matches did not
     exceed .5 percent of the wage reports. The number of no-matches reported by
     these employers ranged from 13 to 47. Their no-matches were reported on multiple
     wage reports (2 to 9 reports) and each report was evaluated separately to determine
     if the employer should receive an EDCOR letter and for each report, the no-matches
     represented less than .5 percent.

    8 percent of the employers had no-matches that met the EDCOR criteria and
     Agency staff agreed they should have received an EDCOR letter but could not
     explain why a letter was not issued.

Employers Were Not Notified About All No-Matches

Given the EDCOR letters only listed up to 500 reported SSNs even when employers
had reported name/SSN no-matches that far exceeded 500 SSNs, some employers
were not notified about all of their no-matches. Our review found that about
1,650 employers with over 500 name/SSN no-matches had reported about 2.6 million
no-matches to SSA. They received EDCOR letters that included 907,000 of the no-
matches. Consequently, they were not informed of about 1.7 million no-matches.
These employers had reported no-matches that ranged from 501 to 37,375, and about
44 percent of the employers had reported SSA 1,000 or more no-matches to SSA.

SSA sent DECOR letters to 1,579 of the 1,650 employers notifying them of about
428,000 no-matches. As stated earlier, SSA sends DECOR letters to employers when
the employer provides incomplete or invalid employee addresses. If the employers had
provided SSA with valid employee addresses, the Agency would not have notified them
about these no-matches. We were not able to confirm whether the 428,000 no-matches
were among the 1.7 million no-matches that were not included on the EDCOR letters. If
so, then the 1,650 employers would not have been notified about 1.3 million no-
matches.

For the 1,650 employers, SSA placed an indicator on their EDCOR letter that explained
they had additional name/SSN no-matches and that they should contact SSA to obtain
the additional information. 14 According to SSA staff, the Agency did not track how often

13
  The employment type code identifies the kind of employer such as household, agriculture, or railroad.
See Department of the Treasury, IRS, Instructions for Forms W-2 and W-3 Wage and Tax Statement and
Transmittal of Wage and Tax Statements.
14
  SSA places the word “MORE” on the EDCOR letter when an employer submitted more than
500 name/SSN combinations that could not be matched to SSA’s records.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                              7
employers contacted SSA to request the additional name/SSN no-matches. 15 While the
indicator made employers aware they had additional name/SSN no-matches, we
believe it would have been more useful if the letters clearly stated the number of
name/SSN no-matches employers had in their payroll. This additional information
would provide employers with a more complete view of their wage reporting problems.
Moreover, if employers know the magnitude of their wage reporting problems, they may
be encouraged to correct inaccuracies, especially because they could be assessed
penalties by the IRS. The Internal Revenue Code allows the IRS to penalize an
employer if it fails to file a complete and accurate wage report form. 16

Letters Provide Limited Information

The EDCOR letter provided employers with limited information needed to resolve
name/SSN no-matches. The letters only included the reported SSNs and not the
reported names shown on Forms W-2. We believe that without the reported names,
employers might have difficulty identifying those employees with mismatches, especially
in instances where the letter includes duplicate SSNs. Duplicate SSNs could occur
because of keying errors, potential SSN misuse, or the reporting of all zeros for
employees who have not been assigned valid SSNs. 17 There were about
16,000 employers that had reported wage items with duplicate SSNs, and most of the
duplicates related to SSNs reported with all zeros.

RESOLVING NAME/SSN NO-MATCHES
Our review found that name/SSN no-matches were less likely to be resolved under the
EDCOR process as compared to SSA’s DECOR process. As shown in Figure 3, for
TYs 2001 to 2005, the DECOR process helped resolve about 11 times more suspended
wage items related to name/SSN no-matches than the EDCOR process. During this
period, the EDCOR process resulted in about 60,500 wage items being reinstated from




15
  According to SSA staff, they received about 5,000 calls in Fiscal Year 2006 regarding EDCOR, but they
were unable to specify how many of the calls related to employers requesting the additional name/SSN
no matches.
16
     26 U.S.C. § 6721.
17
  The IRS instructs employers who file their wages electronically to use all zeros in the SSN block of the
Form W-2 if the employee has applied for an SSN but has not received it at the time he or she was hired.
For employers who file by paper, they should write-in “Applied for” in the SSN block on the Form W-2.
However, SSA systems convert blanks and alphanumeric fields into zeros, making it hard to differentiate
between what the employer reported and what SSA recorded. See 2008 Instructions for Forms W-2 and
W-3, IRS, Department of the Treasury.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                                 8
the ESF and posted to the MEF. 18 In comparison, the DECOR process resulted in
approximately 680,500 wage items being reinstated from the ESF, a difference of
620,000. One factor that could have attributed to the success of the DECOR letters is
the fact that DECOR letters are mailed before the EDCOR letters so employees and
some employers have the opportunity to resolve no-matches earlier. Another factor is
the DECOR letters provide employees and employers with more detailed information
about the no-matches, including the name and SSN of the employee and the wage
amount.

               Figure 3: Cumulative Number of Reinstated Wage Items
           Processed as a Result of EDCOR and DECOR (TYs 2001 to 2005)




In addition, we found that in TY 2001, the EDCOR process had resulted in a
significantly high number of reinstated items (see Figure 4). This was the year in which
SSA had sent EDCOR letters to all employers who submitted at least one wage item
where the name and SSN combination did not agree with SSA’s records. In TYs 2002
through 2005, SSA limited sending letters to employers who submitted more than
10 Forms W-2 that could not be posted to the MEF because the name and SSN
combination did not match SSA's records, and the mismatched forms exceeded .
5 percent of the total Forms W-2 included in the employer’s wage report. During these
years, the number of EDCOR reinstatements remained relatively constant.




18
   Given that SSA had not established a specific code that identifies the EDCOR letter process as the
reason a wage item was reinstated from the ESF, we followed the agency’s methodology by reviewing
reinstatements associated with corrected Forms W-2. In 2003, the agency used this approach in its
evaluation of the effectiveness of the EDCOR notice process for TY 2001. We believe the agency’s
assumption that the receipt of corrected Form W-2s would primarily be in response to an EDCOR letter is
reasonable because the agency instructs employers to submit corrected Forms W-2 to resolve no-
matches.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                              9
                      Figure 4: Reinstated Wage Items Processed as a
                    Result of EDCOR and DECOR Processes by Tax Year




Large Employer Reinstatement Facility

Another option offered to employers to resolve name/SSN no-matches is the Large
Employer Reinstate (LER) facility. As part of the LER process, SSA provided
employers with an electronic data file that contained suspended wage items for multiple
TYs, if requested. 19 Employers were instructed to fill in the corrected information on the
data file and submit it to SSA for processing. Employers had the option of correcting
name/SSN no-matches as well as wage items suspended under the Earnings After
Death (EAD) and Young Children's Earnings Record (YCER) processes, which are
discussed in Appendix C. 20 We found the LER facility was not routinely used to resolve
name/SSN no-matches. During TYs 2001 through 2005, we found about
59,000 name/SSN no-matches were resolved under the LER facility. According to
several Employer Service Liaison Officers (ESLO), 21 the LER facility was usually



19
   Employers can obtain information about wage items reported by that employer in the ESF for TYs 1978
to present.
20
     See Appendix C for more details about the EAD and YCER processes.
21
  SSA has ESLOs in each of its regions nationwide to (1) answer employers’ questions on wage
reporting submissions; (2) encourage employers to use SSA’s various programs, such as the Social
Security Number Verification Service (SSNVS); (3) conduct wage-reporting seminars, in partnership with
the IRS; and (4) contact employers with significant suspended wage items in their regions.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                             10
suggested to employers a few times a year. 22 As was the case with reinstatements
resulting from the EDCOR process, there were a significantly high number of
suspended wage items in TY 2001 that were reinstated as a result of the LER process.
As noted previously, TY 2001 was the year the Agency sent letters to all employers who
had at least one item posted to the ESF. The reinstatements leveled off when the
Agency changed the EDCOR criteria in TY 2002.

                  Figure 5: Number of Wage Items Reinstated as a Result of
                  the Large Employer Reinstate Process (TYs 2001 to 2005)

                             51,238
              60,000

              50,000

              40,000

              30,000

              20,000                         5,477
                                                           1,898          203           270
              10,000

                     0
                            2001           2002          2003          2004           2005

BUSINESS SERVICES ONLINE

In addition to the EDCOR letters, SSA provided employers with the option to view and
correct name/SSN no-matches using its Business Services Online (BSO), which is a
suite of Internet services for businesses and employers to exchange information with
SSA. 23 The main function of BSO is to allow employers to report Forms W-2 to the
Agency electronically. 24 However, BSO also offers employers the option to review
name/SSN no-matches online using the View Name and Social Security Number Errors
service. 25 Under this service, employers can review


22
  In 2006, the San Francisco Region sent letters to every employer in the region who had 100 or more
wage items posted to the ESF for TY 2005 to encourage them to use the LER facility to resolve their
wage discrepancies. The region mailed approximately 4,400 letters to employers. However, only a few
employers used the LER facility to provide corrected data to SSA.
23
     Employers and third party submitters can use BSO to exchange information with SSA.
24
 Some of the other functions offered by BSO include Report Wages to Social Security; View File/Wage
Report Status, Errors and Error Notices; and Verify Social Security Numbers Online using the SSNVS.
25
     This service is only offered to employers who file their wage reports electronically.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                           11
        errors, including name/SSN mismatches found by SSA,
        the status of wage files and wage reports, and
        EDCOR letters.

The BSO functions appeared to be more beneficial than the EDCOR process because
employers could

        view all no-matches, since this function was not subject to the EDCOR criteria
         (for example, more than 10 items posted to the ESF and the suspended items
         exceed .5 percent of the total wage items included on a wage report),
        review both the name and SSN that did not match SSA’s records;
        access no match information within a day to a few weeks, as opposed to months
         under the EDCOR process; and
        create and submit corrected Forms W-2 online.

However, we found most employers who were registered to use BSO did not request
access to the View Name and Social Security Number Errors service. As of June 2008,
about 271,000 employers were registered to use BSO, but only 14,344 (5 percent) had
requested access to the View Name and Social Security Number Errors service. The
low participation could be attributed to the fact that the View Name and Social Security
Number Errors service is an optional feature of BSO and employers must go through a
more rigorous application process to gain access to the service. 26 While SSA has been
encouraging employers to register for BSO for wage reporting because it is more
convenient, 27 we believe the Agency may want to promote greater use of the View
Name and Social Security Number Errors service or consider making the service
mandatory when employers register to use BSO.




26
  SSA verifies the user’s authorization to use the View Name and Social Security Number Errors service
by sending a letter to the employer notifying them that their employee had requested access to the
service on their behalf. SSA sends the letter to the employer’s address shown in the Employer
Identification File and not the address provided by the user during the application process.
27
  ESLOs encourage employers to use BSO during various payroll conferences and other meetings with
employers.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                            12
                                   Matters for Consideration
Given the current hiatus for sending EDCOR letters to employers, this would be the
appropriate time for the Agency to determine whether the criteria for issuing EDCOR
letters is effective in communicating wage reporting problems to employers. Our review
questioned whether EDCOR letters were being sent to most employers who had wage
items posted to the ESF. Moreover, our review showed EDCOR letters were not as
successful as other SSA processes in removing suspended wage items from the ESF.
The Agency may want to focus its efforts on (1) encouraging greater use of the View
Name and Social Security Number Errors service offered under BSO for employers who
report wages electronically because the service appeared to be more beneficial than the
EDCOR letter in informing employers about wage reporting problems and (2) exploring
ways to ensure employers who do not use BSO and have a significant number of
no-matches are informed about their wage reporting problems.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)            13
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Educational Correspondence Letter
APPENDIX C – Other Types of Letters
APPENDIX D – Scope and Methodology
APPENDIX E – OIG Contacts and Staff Acknowledgments




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)
                                                                           Appendix A

Acronyms
 BSO                Business Services Online
 CY                 Calendar Year
 DECOR              Decentralized Correspondence
 DHS                Department of Homeland Security
 DoB                Date of Birth
 EAD                Earnings After Death
 EDCOR              Educational Correspondence
 EIF                Employer Identification File
 EIN                Employer Identification Number
 ESF                Earnings Suspense File
 ESLO               Employer Service Liaison Officer
 FR                 Federal Register
 INA                Immigration and Nationality Act
 IRS                Internal Revenue Service
 LER                Large Employer Reinstate
 MEF                Master Earnings File
 NH                 Numberholder
 SSA                Social Security Administration
 SSN                Social Security number
 SSNVS              Social Security Number Verification Service
 TY                 Tax Year
 U.S.C.             United States Code
 YCER               Young Children’s Earnings Record


 Forms
 W-2                Wage and Tax Statement
 W-2C               Statement of Corrected Income and Tax Amount




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)
                                                                           Appendix B

Educational Correspondence Letter




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)           B-1
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-2
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-3
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-4
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-5
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-6
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-7
Effectiveness of Educational Correspondence to Employers (A-03-07-17105)   B-8
                                                                                 Appendix C

Other Types of Letters
The Social Security Administration (SSA) sends thousands of other letters to employers
and employees each year requesting additional information related to suspended wage
items. The other letters sent to employers and employees are the Earnings After Death
(EAD) and Young Children's Earnings Record (YCER).

EAD: SSA has processes in place to detect unusual earnings reports, such as
instances where earnings relate to someone recorded as deceased on SSA's records.
Under the EAD process, when a date of death is present on the Numident, all earning
items reported for Tax Years after the year of death are placed in the Earnings
Suspense File (ESF). The earnings are also transmitted to an EAD investigative file so
letters can be printed and mailed to employers and/or employees. SSA sends EAD
letters to employers and employees. Employer responses are returned to SSA for
processing. If the employer states the individual was working for them, SSA sends a
notice to the employee requesting that he or she visit a field office to correct his or her
earnings information. At the field office, staff interviews the individual and verifies his or
her identification. If the evidence appears valid, SSA personnel reinstate the wages to
the proper Master Earnings File account. If the employer states the wage earner is
deceased, SSA informs the employer to refund the employee's share of the Social
Security taxes to the employee's estate or next of kin, and the relevant wages will
remain in the ESF. We reviewed the EAD process in a prior audit.1

YCER: Another unusual earnings pattern monitored by SSA relates to young earners.
Under the YCER process, SSA checks the Date of Birth (DoB) for the Social Security
Number (SSN) on each earnings report. If a DoB indicates the numberholder (NH) is a
child under age 7, the earnings will be placed in the ESF. When the Wage and Tax
Statement (Form W-2) reporting process is complete, a YCER investigate file is
generated to determine whether the earnings belong to a child under age 7. SSA sends
YCER letters to employers and employees. Employer responses are returned to SSA
for processing. If the employer states the NH's SSN, name and DoB agree with SSA's
records, the wages are reinstated to the NH. If the employer states the NH's name and
SSN are the same as SSA's records, but the DoB is different, a form is sent to the NH




1
 Effectiveness of the Social Security Administration’s Earnings After Death Process (A-03-01-11035),
August 2002.



Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                               C-1
advising him or her to contact the local SSA office to correct the discrepancy. If the
employer states the name and/or SSN is different from SSA's records, the information is
further researched. If the employer does not return the form or states the NH did not
work for them, a letter is sent to the NH asking him or her to contact the local SSA field
office. We reviewed the YCER process in a prior audit. 2




2
 Effectiveness of the Young Children’s Earnings Records Reinstatement Process, (A-03-05-25009),
October 2006.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)                          C-2
                                                                           Appendix D

Scope and Methodology
To accomplish our objective, we:

   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

   Reviewed Office of the Inspector General reports, Government Accountability Office
    reports and other relevant documents.

   Obtained a copy of the Educational Correspondence (EDCOR) File generated in
    Calendar Year 2006. We extracted from the EDCOR File about 7.5 million wage
    items related to Tax Year (TY) 2005.

   Obtained a copy of the TY 2005 Decentralized Correspondence (DECOR) File,
    which included about 10.5 million wage items related to multiple TYs. We extracted
    from the DECOR File approximately 10.1 million wage items related to TY 2005.

   Obtained and reviewed a copy of SSA’s Reinstate File as of November 2007 for
    TYs 2001 to 2005.

   Obtained trend data for the Business Service Online as of June 2008.

   Obtained a data extract of Wage and Tax Statement data from the TY 2005
    SSA/Internal Revenue Service Reconciliation file.

Because of time constraints, we did not review the internal controls over the EDCOR
and DECOR processes. We conducted limited testing to determine whether the data
provided were reliable for the purpose of our review. In prior audits, we reviewed the
completeness and accuracy of the Earnings Suspense File (ESF) postings, and tested
the accuracy of ESF data reinstated to earnings records. The entities audited were the
Office of Earnings, Enumeration and Administrative Systems within the Office of the
Deputy Commissioner for Systems and the Office of Central Operations within the
Office of the Deputy Commissioner of Operations. We performed our review in
Philadelphia, Pennsylvania, between May and September 2008 in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)
                                                                           Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Cylinda McCloud-Keal, Director (215) 597-0572

   Carol Madonna, Audit Manager (215) 597-1485

Acknowledgments
In addition to those named above:

   Virginia Harada, Auditor-in-Charge

   Rich Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-07-17105.




Effectiveness of Educational Correspondence to Employers (A-03-07-17105)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
